                                  Management Letter 11-13
                  Potential Unwarranted Payment to a NARA Contractor

On June 15, 2011 the OIG reported that a senior NARA official was attempting to authorize
an approximately $1.5 million payment to a contractor, which did not appear warranted under the
contract. The official's justification lacked supporting details and was based upon rational we
believed deviated from criteria established and exercised for the purpose of determining
contractor payments. This senior official's proposed action differed from the position of other
involved NARA personnel, who were critical of the contractor's performance. Prior to any funds
being disbursed, the OIG advised the Archivist that we lacked documentation to serve as a basis
for making this payment, and we did not believe it was in the best interest of the agency or the
taxpayer.
